Audit Report




OIG-11-043
Management Letter for the Audit of the United States Mint’s
Fiscal Years 2010 and 2009 Financial Statements


December 3, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 3, 2010


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the
                                  United States Mint’s Fiscal Years 2010 and 2009 Financial
                                  Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the United States Mint’s (Mint) Fiscal Years 2010 and 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of the Mint as of September 30, 2010 and 2009, and for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit but were
            not required to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits,
            at (202) 927-5407.

            Attachment
THE UNITED STATES MINT

     Management Letter

      Fiscal Year 2010
Transmittal Letter                                                                                     3

Appendix A – Fiscal Year 2010 Management Letter Comments                                               5

Human Resources

   A-1      Controls over the Segregation of Duties within WebTA should be strengthened                5

Asset Management

   B-1      Controls over Assets Should be Strengthened                                                5
   B-2      Controls over Retirements Should be Strengthened                                           7

Revenue and Accounts Receivable

   C-1      Controls over Numismatic Accounts Receivable should be strengthened                        8

Inventory Management

   D-1      Controls over Quarterly Physical Inventory Procedures should be Strengthened               9
   D-2      Controls over the Calculation of the Weighted Average Adjustment should be Strengthened   10

Appendix B – United States Mint’s Response to Management Letter Comments FY 2010                      12

Appendix C – Status of Prior Year Management Letter Comments                                          13




                                                    2
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




December 2, 2010


Inspector General
United States Department of the Treasury


Director
The United States Mint


Gentlemen:

We have audited the financial statements of the United States Mint (Mint) for the years ended September
30, 2010 and 2009, and have issued our report thereon dated December 2, 2010. In planning and
performing our audits of the Mint’s financial statements, we considered the Mint’s internal control over
financial reporting, in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not for expressing an opinion on the effectiveness of the Mint’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the Mint’s internal control.

During our fiscal year 2010 audit of the Mint’s financial statements, we did not note any matters involving
internal control over financial reporting and its operation that we considered to be significant deficiencies
or material weaknesses under standards established by the American Institute of Certified Public
Accountants.

Our audit procedures were designed primarily to enable us to form an opinion on the Mint’s financial
statements, and therefore, may not bring to light all weaknesses in internal control over financial reporting
that exist. However, we also take this opportunity to share our knowledge of the Mint, gained during our
work, to make comments and suggestions that we hope can be useful to you.

Although not considered to be significant deficiencies, we noted certain matters involving internal control
and other operational matters, which are presented in Appendix A, for your consideration. These comments
and recommendations, all of which have been discussed with the appropriate members of management, are
intended to improve the Mint’s internal control or result in other operating efficiencies. We have not
considered the Mint’s internal control since the date of our report. The Mint’s response to our comments
and recommendations is presented in Appendix B. This response has not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express no opinion on it.
Appendix C presents the status of prior year management letter comments.

We appreciate the courteous and professional assistance that the Mint’s personnel extended to us to
complete our audit timely. We would be pleased to discuss these comments and recommendations with you
at any time.




                                                                       3
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
This communication is intended solely for the information and use of the Mint’s management, the
Department of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, the
Office of Management and Budget, and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,




                                                   4
                                                                                                     Appendix A

                                         THE UNITED STATES MINT
                                 Fiscal Year 2010 Management Letter Comments


Human Resources

A-1 Controls over the Segregation of Duties within WebTA should be strengthened

We noted the following during our interim testwork over Human Resources. We noted that for one of 45
timesheets tested the person who validated the timesheet was the same person who certified the timesheet.

Criteria:

OMB Circular No. A-123, Management’s Responsibility for Internal Control, (revised December 31, 2004),
Section II, Subsection C, Paragraph 1

          Control activities include policies, procedures and mechanisms in place to help ensure that agency
          objectives are met. Several examples include: proper segregation of duties (separate personnel with
          authority to authorize a transaction, process the transaction, and review the transaction); physical
          controls over assets (limited access to inventories or equipment); proper authorization; and appropriate
          documentation and access to documentation.

Cause:

    •     In Fiscal Year 2009, WebTA was upgraded to only allow designated timekeepers to act in a timekeeper
          capacity. However, WebTA was not upgraded to prevent the same timekeeper to both validate and
          certify the same timesheet.
    •     Timekeepers had to review their list of delegates and remove any person who should not have
          timekeeper access. However, a delegate had access as a timekeeper but was not removed from a list of
          approved timekeepers. The delegate continued to have access to both validate and certify a timesheet.

Effect:

Inadequate segregation of duties within WebTA does not allow the timely detection and correction of errors or
irregularities related to timekeeping.

We recommend Mint management:

    1. Request the Bureau of Public Debt’s Administrative Resource Center to change the functionality of
       WebTA in order to restrict a timekeeper from having the ability to both validate and certify the same
       timesheet.
    2. Review the list of timekeeper delegates in WebTA and remove delegates who should not have
       timekeeper access.

Asset Management

B-1 Controls over Assets Should be Strengthened

We noted the following during our interim testwork over Property, Plant and Equipment (PP&E) additions,
capitalizations and adjustments:

Timeliness of placing assets into a PP&E depreciable account:
                                                         5
                                                                                                      Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2010 Management Letter Comments


    •   For four out of 30 assets from the interim capitalized sample and one out of 30 assets from the interim
        additions sample, the assets should have been placed into service in the prior fiscal year, but were not
        moved from Construction in Progress (CIP) into a depreciable account until the current fiscal year. In
        addition, to correct this, the prior fiscal year’s depreciation expense was recognized in the current fiscal
        year.
    •   For four out of 30 assets from the interim capitalized sample, the assets were not moved to a PP&E
        depreciable account in a timely manner within the current fiscal year.

Capitalizing Costs:

    •   For four out of 30 assets from the interim additions sample, freight and installation costs were expensed
        instead of capitalized.

No supporting documentation:

    •   For one out of 15 items from the interim adjustment sample, the Mint could not provide adequate
        supporting documentation for an adjustment of ($73,037).

Criteria:

Per The United State Mint’s Standard Operating Procedures, titled Determining when Construction in Process
Assets become Capital Assets:

        If it is determined that a CIP asset is completed and ready to be placed into production, the
        Engineers/Contracting Officer Technical Representative (COTR)s will issue a Project Closeout Form or
        an e-mail that details the relevant project closeout information in it to the Fixed Assets Accountants
        alerting them that the equipment has been approved for production. The memorandum or e-mail will
        include information about the asset and will identify the date placed into service, a description of the
        asset, the cost of it, along with any other relevant information.

Per Statement of Federal Financial Accounting Standards No 6:

        Paragraph 26

        All general PP&E shall be recorded at cost. Cost shall include all costs incurred to bring the PP&E to a
        form and location suitable for its intended use. For example, the cost of acquiring property, plant, and
        equipment may include: transportation charges to the point of initial use, fixed equipment and related
        installation costs required for activities in a building or facility.




                                                         6
                                                                                                        Appendix A

                                          THE UNITED STATES MINT
                                  Fiscal Year 2010 Management Letter Comments


Cause:

    •     The COTR’s have a different interpretation of when a CIP asset is complete and ready to be placed into
          production than the FA Accountants. Additionally, the COTR’s are not communicating to the FA
          Accountant in a timely manner when the CIP assets should be placed into service in the system.
    •     The Mint is not following accounting standards when determining the treatment of costs related to
          PP&E.
    •     The Mint is not maintaining adequate supporting documentation for adjustments to fixed assets.

Effect:

    •     Building Improvement’s beginning balance is understated by $1,932,407, equipment’s beginning balance
          is understated by $384,449, and CIP’s beginning balance is overstated by $2,316,856. The most likely
          error in the capitalized population is $2,239,008.07and the most likely error in the additions population is
          $200,080. In addition, depreciation expense is overstated by $15,273.
    •     PP&E is understated by $14,312 and operating expenses are overstated by $14,312. The most likely
          error in the additions population is $45,678. In addition, depreciation expense is understated by $727.
    •     CIP’s beginning balance is overstated by $73,037. The most likely error in the adjustments population is
          $767,602.

We recomment Mint management:

     1. Ensure the COTR’s and the FA Accountants have the same interpretation of when a CIP asset is
        complete and ready to be placed into production.
     2. Enforce compliance with the SOP for determining when CIP assets become capital assets to ensure
        PP&E are timely and accurately moved to a depreciable account and start being depreciated in the
        correct period.
     3. Ensure all costs related to an asset, including the costs of acquiring the asset, are capitalized.
     4. Maintain adequate supporting documention for adjustments to PP&E.

B-2 Controls over Retirements Should be Strengthened

We noted the following during our interim PP&E testwork:

    •     For three out of 20 samples tested, the Mint could not provide substantiated documented evidence of
          when a PP&E retirement was physically disposed from the Mint’s facility.
    •     For two out of 20 samples tested, the assets were no longer in use and should have been retired in the
          prior fiscal year instead of the current fiscal year.

Criteria:

Per The United State Mint’s Standard Operating Procedures, titled Recording Fixed Asset and Property
Retirements:

                                                           7
                                                                                                       Appendix A

                                           THE UNITED STATES MINT
                                   Fiscal Year 2010 Management Letter Comments


          When the disposition of the capital asset is approved and the asset is physically disposed of, it should be
          removed from the G/L account balances and the subsidiary AM Module of the United States Mint’s
          Enterprise Resource Planning (ERP) system within 30 days of disposal.

Cause:

    •     The Mint did not have policies and procedures to ensure the facilities properly documented when assets
          were removed from the facility.
    •     The Mint did not perform a timely review of software to determine if it is still in use.

Effect:

    •     Inadequate internal controls do not allow the timely detection and correction of errors or irregularities
          related to amounts.
    •     The beginning balances for internal use software, USSGL 183001, and accumulated amortization on
          internal use software, USSGL 183901, are overstated by $276,380, respectively. This results in a most
          likely misstatement of $4,393,192.

We recommend Mint management:

    1. Update their policies and procedures to ensure the facilities adequately document when an asset is
       removed from the facility.
    2. Develop policies and procedures to ensure software is retired when no longer in use.

Revenue and Accounts Receivable

C-1 Controls over Numismatic Accounts Receivable should be strengthened

During our testwork over the Mint’s Numismatic Accounts Receivable, we noted the following:

    •     For 4 out of 20 accounts selected, the account was greater than $100, more than 180 days overdue and
          was not referred to Debt Management Service (DMS).
    •     For 6 out of 20 accounts selected, the accounts were referred to the Mint police because they were results
          of identity theft. These accounts have been open since Fiscal Year 2007. The Mint police have exhausted
          all collection efforts, and these accounts should be written off.

Criteria:

Per The United States Mint’s Standard Operating Procedures (SOP), Titled Receivable Write Off

          After 180 days all debt greater than $100 is referred to the Debt Management Service (DMS) debt
          management service for collection.

Cause:

    •     The Mint did not follow their SOP and the DCIA of 1996 for referring overdue accounts to DMS.

                                                           8
                                                                                                    Appendix A

                                         THE UNITED STATES MINT
                                 Fiscal Year 2010 Management Letter Comments


    •     The Mint does not have policies or procedures regarding accounts receivable where identity theft
          occurred.

Effect:

Inadequate internal controls and lack of policies and procedures do not allow for timely detection and correction
of errors or irregularities.

We recommend the Mint management:

    1. Refer all accounts, which are overdue by 180 days and greater than $100, to DMS for collection as stated
       in the Mint’s SOP and the DCIA of 1996.
    2. Include in their SOP procedures for identity theft cases. Specifically, the procedures should address the
       follow up communication between accounting and the Mint police to determine if the account should be
       written off if the Mint police have exhausted all collection efforts.

Inventory Management

D-1 Controls over Quarterly Physical Inventory Procedures should be Strengthened

We noted the following during the fourth quarter physical inventory at the Mint Denver facility:

    1. Items not counted during the inventory
          •   A tank of 518 kg of condemned pennies was not counted. During the final walk through process, we
              informed Mint management that the tank was not counted. Although the Mint accounted for the
              tank, the Mint incorrectly accounted for the tank as Inventory Work in Process (WIP) instead of
              Inventory Raw Materials.
          •   A tank of 549 kg of Upset Golden Dollar Blank was not counted until noted during the final walk
              through.
    2. Inaccurate quantity of inventory
          •   A subinventory location for Golden Dollar Coils existed in the Costed Inventory By Account (CIBA)
              for inventory returned to the vendor. The facility had 1,585 kg of coil returned to the vendor;
              however, the supporting documentation evidenced that 7,546 kg was returned to the vendor.
    3. Discrepancies noted during the reconciliation process
          •   The Mint provided the explanation for the adjustment of $284,636 for quarters in WIP, subinventory
              location CWIP, 30 days after the inventory was completed.
          •   An inventory adjustment of 3,359 kg of WIP nickels was not processed until after production
              resumed.
          •   An adjustment of 2.068 boxes of AZ Grand Canyon Quarters Rolled in Box, was not made.




                                                        9
                                                                                                      Appendix A

                                          THE UNITED STATES MINT
                                  Fiscal Year 2010 Management Letter Comments


Criteria:

Per The United States Mint’s Standard Operating Procedures (SOP), Inventory Counting SOP:

          Section 6.3 Any variance results in an adjustment to the perpetual records.

          Section 6.5.4 Explain and forward information on large differences found on the Reconciliation Report
          within ten business days of the end of the API to the OCFO.

Cause:

    •     The facility did not follow their procedures to ensure all inventory is counted, and did not properly
          account for the tank when they discovered the tank was not counted.
    •     The facility did not follow their procedures to ensure all inventory is counted. Oracle consumed more
          coil than was used for production, and the facility did not reconcile items returned to the vendor to
          amounts recorded in Oracle.
    •     The facility did not follow the SOP during the reconciliation. Specifically they:
          o   Did not provide an explanation to Headquarters within the timeframe established in the SOP.
          o   Did not adjust all variances resulting from the inventory observation.
          o   The facility resumed production before all inventory adjustments were posted.

Effect:

    •     USSGL 152501 Inventory Raw Materials is understated by $1,014 and USSGL 152601 Inventory WIP is
          overstated by $2,159.
    •     USSGL 152501 Inventory Raw Material is understated by $59,133.
    •     USSGL 152601 WIP is overstated by $39,227.

We recommend Mint management:

    1. Ensure all inventory is counted during the physical inventory and properly adjusted.
    2. Ensure the amounts returned to the vendor reconcile to the amounts in Oracle.
    3. Strengthen the reconciliation procedure. Specifically management should:
          a. Provide timely explanations for all adjustments greater than the tolerance thresholds.
          b. Ensure all inventory adjustments are processed before production resumes.
          c. Reconcile the final counts to the final amounts recorded in the CIBA.

D-2 Controls over the Calculation of the Weighted Average Adjustment should be Strengthened

During our inventory valuation test work of the circulating inventory, we noted that the calculation of the
weighted average was not done correctly. The total adjustment of $2,617,050 was only applied to raw materials
and not to finished goods and work in process (WIP) as stated in the Mint’s Standard Operating Procedures. The

                                                          10
                                                                                                   Appendix A

                                        THE UNITED STATES MINT
                                 Fiscal Year 2010 Management Letter Comments


weighted average adjustment amounts should be $120,552 for raw materials, $106,913 for WIP, and $1,474,418
for finished goods.

Criteria:

In accordance with The United States Mint’s Standard Operating Procedures, titled Inventory Weighted Average

          Compute the weight of each denomination by the face value of the coins based on the account where the
          material is currently held (Raw Material – account 152501; Work-in-Process – account 152601, or
          Finished Goods – 152701.)

          The journal entry will be a debit/credit to raw materials, work-in-process or finished goods inventory
          accounts for the difference between the standard cost and the weighted average.

Cause:

The Mint did not create separate USSGL accounts for the weighted average adjustment as stated in their SOP.

Effect:

Raw materials is understated by $2,496,499; WIP is understated by $106,913; finished goods is overstated by
$1,474,418; and Cost of Goods Sold is overstated by $1,128,994.

We recommend the Mint management:

    1. Create separate USSGL accounts for the weighted average adjustment .

    2. Make the correcting adjustment to the proper accounts.




                                                       11
                                                                           Appendix B




                                   December 2, 2010



KPMG LLP
2001 M Street N.W.
Washington, DC 20036

Ladies and Gentlemen:

We have reviewed the fiscal year 2010 Management Letter Comments and are in
agreement with the reported observations. The United States Mint recognizes the need
for strong internal controls and is taking corrective actions to address the noted
deficiencies. We have made significant progress toward resolving the reported issues and
will continue to work with KPMG and the Office of Inspector General in identifying the
specific actions that will ensure we have taken appropriate corrective action.


                                    Sincerely,




                                    Patricia M. Greiner
                                    Associate Director/Chief Financial Officer
                                    United States Mint




                                          12
                                                                                        Appendix C

                                   THE UNITED STATES MINT
                          Status of Prior Year Management Letter Comments
                                 Fiscal Year 2010 Management Letter


     Fiscal Year 2009 Management Letter Comment                       Fiscal Year 2010 Status
Financial Reporting
A-1 Standard Operating Procedures Should be Implemented for Closed.
Manual Journal Entries
Asset Management
B-1 Controls Over Asset Retirements Should be Strengthened       Closed.

B-2 Controls Over Assets Should be Strengthened                  Closed.

Inventory Management
C-1 Controls Over Standard Cost Updates Should be Strengthened   Closed.
C-2 Controls Over Classification of Inventory Held at Coin Wrap Closed.
Should be Strengthened
C-3 Controls Over Calculation of the Weighted Average Should be Repeated: See fiscal year 2010
Strengthened                                                    revised comment at D-2.
Revenue and Related Accounts Receivable
D-1 Controls Over Numismatic Accounts Receivable Should be Repeated: See fiscal year 2010
Strengthened                                               revised comment at C-1.
Budgetary Resources
E-1 Controls Over Review of Open Obligations Should be Closed.
Strengthened




                                                  13
